   MEDICARE      REIMBURSEMENT FOR
         OUTPATIENT LABORATORY
                 SERVICES




OFFICE OF INSPECTOR GENERAL
OFFICE OF ANALYSIS   ANDkVSPECTIONS
                                      MARCH 1989
   MEDICARE    REIMBURSEMENT            FOR
      .OUTPATIENT   LABORATORY
               SERVICES




                  Richard P. Kusserow
                  INSPECTOR GENERAL




OAI-04-88-01080                         MARCH 1989 

                                EXECUTIVE SUMMARY 



PURPOSE

This inspection assessesthe effects on Medicare program costsof adopting a national fee
schedulefor the payment of outpatient lab servicesfor Medicare beneficiaries.

BACKGROUND

Medicare paid nearly $1.3 billion for outpatient lab servicesin 1986 and nearly $1.6 billion in
1987 according to Part B Medicare Annual Data (B-MAD). Expenditures are expectedto rise
to $2.4 billion by 1990.

Payments are now made at the lowest of threerates: the amount indicated on a carrier-wide
fee schedule (the “area rate”); the amount imposed by a national fee limitation; or the amount
actually billed.

Under current law, starting in 1990 arearates will be discontinued and all reimbursement will
be basedon a national fee schedule.


FINDINGS

Conversion of the National Limitation to a National Fee Schedule Could be Costly

Area rates for reimbursement of lab servicesvary significantly among Medicare carriers. The
Medicare program benefits from thesevariancesin caseswhere the arearate is lower than the
national limitation.

Implementation of a national fee schedulewithout thesearearates could be costly. For ex-
ample, using the current national fee limitation asthe national fee schedulewould increase
Medicare costs by $82 million in 1990 for the 62 most frequently reimbursed tests. The total
cost for all Medicare lab testswould be much higher.


RECOMMENDATION

The Health Care Financing Administration (HCFA) should request that Congressrepeal the re­
quirement to baselab reimbursement on a national fee schedulebeginning in 1990.
Health Care Financing Administration Comments

The HCFA concurs with the OIG recommendation, noting the Office of Inspector General’s
(OIG) projected savingsof $82 million for the 62 most frequently reimbursed lab tests. The
HCFA suggeststhat the OIG could haveprojected savingsof about $145 million if all tests
were included instead of the 62 testsusedin the calculation.

The HCFA itself estimatespotential savingsof $190 million, by a completely different
method: basing a national fee scheduleon Medicare’s 1984 lab chargedata. The HCFA sug­
geststhat OIG consider its methodology for calculating prospective savingsor that the OIG ex­
trapolate to the entire volume of Medicare lab tests.

Further, the HCFA suggestsseveralrelated lab issuesfor future OIG program inspections.
They particularly requestedthat we analyze the 60 lab testswhich representthe greatestout­
patient dollar volume under Medicare.

The HCFA also recommended replacement of the term “area rates” with “carrier-wide fee
schedules” and the term “national fee limitation” with “median cap” or “ceiling amount.” (See
appendix E for the HCFA memo commenting on the draft report).

Office of Inspector General Response

The OIG appreciatesHCFA’s concurrencewith the recommendation and its favorable com­
ments on the report. The suggestionsof related topics for future study are also appreciated.

We concur with HCFA that the $82 million savingsdocumented in the report is conservative.
However, the methodology employed by this inspection will not permit extrapolation to the
full volume of Medicare reimbursed lab tests. We do acknowledge, however, that the total
figure is much higher than $82 million (seepage 9 of the report), and could well be as high as
the $190 million HCFA supports.

We did not change the terms “arearates” and “national fee limitation” as suggestedby HCFA.
An important audience of this report is the general public. We have chosento retain the more
common terms to describe the lab reimbursement processbecausewe believe theseterms are
more understandableto readersoutside the Department.

As requestedby HCFA, we are undertaking an analysis of the 60 lab testsrepresenting the
greatestoutpatient dollar volume under Medicate.




                                               ii
                                              TABLE OF CONTENTS


EXECUTIVE SUMMARY

INTRODUCTION .......................................................................................................         1

    Background ......................................................................................................        1

    Purpose ............................................................................................................     5

    Met hods ............................................................................................................    5


FINDINGS .................................................................................................................   6

    National Limitation Reduces Medicare Costs ..............................................                                6

    Area Rates Vary Greatly ..................................................................................               6

    Variation in Area Rates Saves Medicare Money ...........................................                                 9

    National Fee Schedule Could Be Costly .......................................................                            9


RECOMMENDATION ................................................................................................              10 

   Repeal National Fee Schedule Requirement ................................................                                 10 


APPENDICES

      Appendix A: Summary of Lab Reimbursement                                        Legislation .......................11 


      Appendix          B: List of 62 Most Frequently Reimbursed                                Lab Tests ...............13 


      Appendix C: Ten Most Common Lab Tests: 

      Variation in Payment Amounts .......................................................................17 


      Appendix D: Outpatient Lab Procedures With 

      Greatest Variation in Payment Amount .....................................*................... 18 


      Appendix          E: The HCFA Comments on the Draft Report ............................19 

                                       INTRODUCTION 



BACKGROUND

What Are Outpatient Clinical Laboratory Services?

Clinical laboratory (lab) servicesinclude a wide range of chemical and other types of examina­
tions of materials derived from the human body to assistin diagnosis, prevention, or treatment
of illness. Medicare pays for more than 1,000 types of lab tests. Some of the most common
are complete blood counts, urinalyses and glucose tolerance tests.

Outpatient clinical lab servicesare thoseprovided outside the hospital inpatient setting. They
are reimbursed through Part B of the Medicare program.


How Much Money Is Involved?

Payments for all lab servicesin the United Statesare estimated to be $20 billion annually.
About $10.8 billion (54 percent) of that amount is spenton outpatient lab services. The fol­
lowing chart illustrates the size of the lab servicesrnarket and the proportions attributable to
inpatient and outpatient services.

                                   Figure A 

                          PAYMENT FOR LAB SERVICES 

                             UNITED STATES - 1986 



                                                                Inpatient 46%
                                                                $9.2 Billion




                                                          m     Outpatient     54%
                                                                 $1 0.8 Billion




                   $20 BILLION 

Medicare payments for outpatient lab servicesconstitute about 12 percent of the total out-
patient lab market. In 1986, thosepayments were nearly $1.3 billion, and in 1987, nearly
$1.6 billion. The Health Care Financing Administration (HCFA) estimatesthat Medicare out-
patient lab expenditures wilI reach $2.4 billion in 1990.

This report addressesonly outpatient lab expenditures.Inpatient lab services,those provided
to hospital and skilled nursing facility inpatients, are generally reimbursed through Medicare’s
Part A coverage. In the caseof hospital inpatients, no separateMedicare payment is made for
lab services. The diagnosis related group (DRG) payment to the hospital must cover lab costs
along with all other costsof the patient’s hospitalization.

Some outpatient lab testing for Medicare beneficiaries is performed by hospital-basedor nurs­
ing home-basedlabs (8.2 percent), but most is done by physician office labs (50.6 percent)
and freestanding or independent labs (41.2 percent).

The following charts illustrate Medicare’s proportion of the outpatient lab market (figure B)
and the proportion of Medicare lab payments going to independent labs, physician office labs
and labs basedin hospital and other settings (figure C).



            Figure B 

   OUTPATIENT LAB SERVICES 

              1986 

                                     Non MedIcare 88%
                                     $9.5 Billion


                                 m   Medicare 12%
                                     $1.3 Billion




                                                              Figure C
                                                     PROVIDERS OF LAB SERVICES
              10.8 BILLION

                                                                         Physician Oflica 51%

                                                                     a   Independent Labs 41%
                                                                     m   Hospilals/other   8%




                                                    fl.3   BILLION




                                                       2

How Does Medicare Reimburse for Lab Services?

The amount Medicare pays for specific outpatient lab servicesis the lowest of:

.     the amount billed by the lab;

.     the amount indicated on the arearate; or

.     the national limitation for the billed service.

The arearate is basedon the carrier’s historical prevailing chargedata. The national limitation
is the median of all the arearatesfor each test. It is applied asa nationwide payment ceiling.

When Medicare is billed for a specific lab service,the carrier compares the billed amount to
the arearate and the national limitation and reimburses at the lowest of thesethree figures.

How Has Lab Reimbursement Changed?

Over the past 8 years, the Congresshas made a number of changesin Medicare lab reimburse­
ment in order to stem the rising cost of lab services. The table on the following page sum­
marizes those legislative actions. (Seeappendix A for a narrative summary of the legislation).

Recognizing that a system basedon the amount labs charge for their servicesis inherently in­
flationary, the Congressimposed a national payment ceiling for each lab test in 1986. In
January 1990, Medicare lab reimbursement is due for another major change. The Omnibus
Budget Reconciliation Act of 1987 requires Medicare to begin in 1990 to pay for lab services
according to a uniform national fee schedule,without using arearates.
                                                                         Figure D

                                                          LEGISLATIVE HISTORY


                            PRE - 1980                 OBRA 1980                    DEFRA 1984                     COBRA 1986                      OBRA 1987

                      .   Reimbursement based     .   Eliminated physician     .    Established area fee                                     .	   Imposed a 3- month
    Payment for Lab
                          on “usual, customary        markups for tests per-        schedules at 60% of                                           freeze on area rates
    Services              and reasonable” char-       formed by other               prevailing charges.                                      .    Effective   April 1, 1988,
                          ges                         providers                     Limited POL reimbur-
                                                                                                                                                  imposed     an 8.3 %
                                                  .                                 sement to 80% of the
                                                      Limited payment to                                                                          reduction    in area rates
                                                                                    fee schedule plus co­

                                                      lowest charge at which                                                                      for most    common tests
                                                      a physician could have        w. 

                                                      secured the service      .    Built in automatic in-

                                                                                    creases based on Con­
                                                                                    sumer Price Index (CPI)



                                                                                                              .	   Imposed a national        .	   Reduced national
    National Fee                                                                                                   ceiling at 115 % of the        limitation amounts
                                                                                                                   median of all area             further, to 100% of the
A   Limitation                                                                                                                                    median as of April 1,
                                                                                                                   rates effective July 1,
                                                                                                                   1986. On January 1,            1988.
                                                                                                                   1988, reduced ceiling     .	   Eliminated CPI
                                                                                                                   to 110 %.                      Increase




                                                                               .	   Required estab­           .	   Postponed estab­          .	   Postponed estab­
                                                                                    lishment of a national         lishment of a national         lishment of a national
    National Fee                                                                    fee schedule by                fee schedule to                fee schedule to
    Schedule                                                                        July 1. 1987                   January 1988                   January 1990

                                                                               .	   Required independent      .	   Required POLs to ac­
    Medicare                                                                        labs and hospitals to          cept assignment
                                                                                    accept assignment;
    Assignment
                                                                                    POLs exempt


    Other                                                                      .	   Eliminated beneficiary                                   .	   Prohibited competitive
                                                                                    deductible and 20%                                            bidding demonstra­
                                                                                    co-pay, except POLs                                           tions until 1989.
                                                                                                                                                  (Subsequently
                                                                                                                                                  extended to 1990.)
PURPOSE

This inspection assessesthe effects on Medicare program costsof adopting a national fee
schedule for the payment of outpatient lab services.

Two major issuesare addressed:

.     What have been the effects of the present national limitation on Medicare outlays?

.     What are the probable effects of Medicare adopting a national fee schedule?


METHODS

The inspection team analyzed existing statistical data, examined legislation and supporting
documents, and reviewed other studiesof lab reimbursement.

The HCFA data base(B-MAD) for 1986 and 1987 provided information on total Medicare ex­
penditures for outpatient lab services,as well asbilling frequencies and payments for in­
dividual lab services. These data were analyzed by type of test and by carrier, yielding the
comparisons discussedin this report.

Other documents examined included the Medicare Carriers’ Manual, the national fee limita­
tion levels, current legislation and legislative proposals, and reports by the Office of Inspector
General (OIG) and the General Accounting Office (GAO).
                                           FINDINGS 



National Limitation ReducesMedicare Costs

The current law requires that Medicare reimburse for outpatient lab servicesat the lowest of
the arearate, the national limitation or the actual amount billed. Medicare savesmoney in
every casewhere the national limitation is lower than the arearate, which would have been
paid in the absenceof a payment limitation.

Before July 1986, there was no national limitation. Medicare reimbursement was basedon the
lower of the actual chargeor the arearate. Had the national limitations which were in effect
in 1988 been applied to 1986 Medicare lab billings, Medicare would have savednearly $71
million--g.6 percent--on the 62 most frequent outpatient lab tests. (Seeappendix B for a list­
ing of those tests.) These 62 testsrepresentabout 75 percent of all outpatient lab procedures
reimbursed by Medicare, and about 57 percent of the total 1986 Medicare expenditures for out-
patient lab services.


The $71 million in savings was calculated as follows:

      Area rate for 62 

      testsX areafrequency                                    = $739.7m 


      Lowest of the arearate 

      or the national limitation X 

      areafrequency                                           = $668.8m 


      IMPACT OF NATIONAL LIMITATION                           = $70.9m 



Area Rates Vary Greatly

Examination of the arearates for the 62 most frequently billed lab testsreveals significant
variation among carriers. Figure E illustrates the extent of variance for the 10 testsmost fre­
quently billed to Medicare. (Seeappendix C for a listing of each test, its highest arearate,
lowest arearate, and national limitation.)




                                                6

                                Figure E 

                MEDICARE LAB REIMBURSEMENT - VARIANCE
Dollars           TEN MOST FREQUENTLY BILLED TESTS
                                                                            1
   16




    6




                                       Procedure Code



          81000 - Urinalysis: routine w/microscopy 

          82947 - Glucose: except urine 

          80019 - Auto tests: 19 or more chemistries 

          85022 - Blood Count: Hemogram, auto, CBC. Dif 

          85610 - Prothrombin Time 

          85031 - Blood Count: Hemogram, manual, CBC 

          82270 - Blood: occult, feces screening 

          84132 - Potassium: Blood 

          85021 - Blood Count: Hemogram, auto 

          85650 - Sedimentation Rate: Wintrobe type 


The chart above shows the complete range of rates. The dividing line between the dark and
the light sections of each bar is the national limitation. The light portion of the bar shows the
difference between the national limitation and the highest arearate. The dark portion shows
the difference between the national limitation and the lowest arearate.

 Since arearates are basedon historical chargesin the carrier service area, assumptionscannot
 be made about the reasonsfor the variations without examining the basis for individual labs’
 charges. Those chargesmay reflect the costs of laboratory operations, competitiveness of the
 local marketplace, or the labs’ own decisions on acceptableprofit levels. They may be based
 on factors which are not discernible by Medicare or other payers.

 Figure F illustrates the 17 testsfor which the variation in arearates is the greatest. (Seeappen­
 dix D for a listing of each test, its highest arearate, lowest arearate, and national limitation.)



                                                        7

                                             Figure F 

                               GREATEST VARIATION AMONG CARRIERS 

     Dollars




               62552           63625           80016           67040           60016           a0019           67070           60006           60003
                       66151           62607           64420           62746           6co12           04443           80005           60007




82552 - Blood Crestine Phos.: Isoenzymes 

86151 - Carcinoembryonic antigen: RIA 

83625 - Blood LDH: Isoenzymes electrophoresis 

82607 - Cyanocobalamin, RIA 

80016 - Auto tests: 13-16 chemistries 

84420 - Theophylline, Blood or Saliva 

87040 - Def. Bacterial Culture, aerobic, blood 

82746 - Blood Folic Acid: RIA 

80018 - Auto tests: 17-18 chemistries 

80012 - Auto tests: 12 chemistries 

80019 - Auto tests: 19 or more chemistries 

84443 - Thyroid Stimulating Hormone, RIA 

87070 - Bacteria Culture, aerobic, other source 

80005 - Auto tests: 5 chemistries 

80006 - Auto tests: 6 chemistries 

80007 - Auto tests: 7 chemistries 

80003 - Auto tests: 3 chemistries 


(Note that for test 82746 the difference between the national limitation and the combined area rate is too small 

to show in the chart.) 





                                                                                         8

As in the prior illustration, the dividing line between the dark and light sectionsis the national
limitation. The dark portion of each bar representsarearates below the national limitation and
the light portion representsarearatesexceeding the national limitation.


Variation in Area Rates SavesMedicare Money

The variations illustrated in figures E and F are advantageousto Medicare. Becausethe
program reimburses at the lowest of the billed amount, the arearate or the national limitation,
Medicare benefits from chargesand arearateswhich fall below the national limitation. At the
sametime, Medicare is not adversely affected by arearates which exceedthe national limita­
tion.

Concerning the 62 most frequently billed lab procedures,if Medicare had paid the national
limitation in all casesrather than paying the arearate when it was lower, the cost of laboratory
serviceswould have been $40 million higher in 1986.

This amount is basedon the following calculation:

      National limitation for 62 testsX areafrequency                        = $709m

      Lowest of the arearate 

      or national limitation X areafrequency 
                               = $668.9m

      IMPACT OF VARIATION IN AREA RATES 
                                    = $40.lm


National Fee Schedule Could Be Costly

The HCFA is presently required to implement a national fee schedulefor lab servicesby 1990.
The effect on Medicare costs will depend on where that schedule setsreimbursement rates.
For the purpose of illustrating this point, this analysis hypothetically assumesthat the national
fee schedule is set at the rates now indicated on the national limitation. Under this scenario,
Medicare costs would be significantly higher in 1990.

The $40 million above is 6 percent more than Medicare would have paid under the current
reimbursement system, which usesboth arearates and the national limitation. If the same6
percent factor is applied to estimated 1990 Medicare expenditures for these62 tests,the result
would be $82 million in increasedMedicare costs.

The 62 lab proceduresfrom which this $82 million cost is derived represent75 percent of
Medicare outpatient lab volume and 57 percent of the total Medicare expenditure for all lab
services. If all the testswere examined, the cost would be even higher.




                                                 9

                                   RECOMMENDATION


Recommendation

The HCFA should request that Congressrepeal the requirement to baselab reimbursement on
a national fee schedulebeginning in 1990.

HCFA Comment

The HCFA responseto the report’s recommendation is: “We concur with the OIG recommen­
dation. The recommendation is consistent with the Administration’s Fiscal Year (FY) 1990
legislative proposal to eliminate the statutory requirement that the Secretaryestablish a nation­
al fee scheduleby January 1, 1990.”




                                               10 

                                         APPENDIX A 


SUMMARY OF LAB REIMBURSEMENT                    LEGISLATION

Prior to the 1980 Medicare and Medicaid Amendments, Medicare made payments to
physicians, to independent labs or to patients for clinical lab services. Physicians could
receive payment whether they actually performed the lab proceduresor sent the specimen to
an independent lab which then billed the physicians for the work. The General Accounting Of­
fice documented that physicians sometimesbilled Medicare, or their patients, at rates which
greatly exceededwhat independent labs chargedthe physicians for the sametests. This com­
mon practice set the stagefor the first of severallegislative changes.

Omnibus Budget Reconciliation Act of 1980

The 1980 amendmentsaddressedthe problem of substantial physician markups on bills for lab
 servicesactually performed by third party labs. In such cases,the amendmentsrequired
physicians to identify the lab which performed the servicesand the amount which it billed the
physician. The legislation authorized Medicare carriers to limit payment to the lowest charge
at which a physician could have securedthe servicesfrom a lab serving the applicable locality.
On the other hand, when physicians did provide the required information, the allowed pay­
ment was the lower of that lab’s “reasonablecharge,” or the amount actually billed the
physician. The “reasonablecharge” is described asthe lowest of: (1) the physician’s or lab
provider’s customary charge for a given service; (2) the prevailing chargefor similar services
in the locality; (3) the actual charge submitted for the given service; or (4) the carrier’s usual
amount of reimbursement for comparable servicesto its own policyholders under comparable
circumstances.

Deficit Reduction Act of 1984 (DEFRA)

Under DEFRA, arearates were set for outpatient lab tests. The rates applied to lab services
furnished by physicians, independent labs, and hospitals on an outpatient basis. The goals
were to savedollars for Medicare and its beneficiaries and to standardizepayments for similar
serviceswithin a geographic area. The DEFRA provided that Medicare pay 100 percent of the
arearate amount and eliminated all co-payment requirements for beneficiaries. The DEFRA
also required that hospital and independent labs acceptassignment (which means that they
agreeto accept the Medicare schedulefee as full payment.)

The rate for each Medicare carrier was set at 60 percent of the prevailing charge level (i.e., 60
percent of the amount calculated as the 75th percentile of the customary charges,weighted by
frequency). The rates were to be adjusted annually to reflect changesin the Consumer Price
Index (CPI). Another key provision of DEFRA required the Secretaryto establish a nation-
wide fee schedule by January 1, 1987; however, the Congresshas postponed implementation
of this requirement until January 1, 1990.




                                                11 

The Comptroller General was required to report to the Congressby January 1, 1987 on the ap­
propriatenessof the arearates and the potential impact of a national fee schedule. The Comp­
troller General found DEFRA savedbeneficiaries substantialamounts of money, but increased
Medicare costs somewhat. Beneficiary savingsresulted from elimination of deductibles and
co-payments, the responsibility for which was assumedby Medicare.

Consolidated Omnibus Budget Reconciliation Act of 1986 (COBRA)

This law imposed a ceiling on the amount that may be paid for each test under an arearate.
The limitation was establishedas 115percent of the median of all arearatesfor a particular
test in a particular lab setting (e.g., physician office labs or independent labs). The limitation
was to be in effect from July 1, 1986 through December 31, 1987. After December 31, 1987,
the limitation was to be reduced to 110percent of the median. The COBRA also required that
physician office labs acceptassignment.

Omnibus Budget Reconciliation Act of 1987 (OBRA)

The OBRA of 1987 imposed a 3-month freeze on arearatesfrom January 1, 1988 through
March 31, 1988. This provision rescinded the inflation (CPI) increasescheduledby DEFRA
for January 1, 1988. Further, effective April 1, 1988, it provided for an 8.3 percentreduction
in the arearates for certain automated testsand other widely available testssuch ascholesterol
blood testsand white blood cell counts. Finally, it provided for the 1987 national limitation
amounts to be in effect through March 31, 1988. After that date, the national limitation
amounts were reduced from 115percent to 100 percent of the median establishedby the area
rates.




                                                12 

                                        APPENDIX B 


            LIST OF 62 MOST FREQUENTLY                 REIMBURSED   LAB TESTS 


                              Outpatient    Clinical    Lab Tests
HCPCS”

80003 	          Automated Multichannel Test:
                 3 Clinical Chemistry Tests

80004           Automated Multichannel Test:
              . 4 Clinical Chemistry Tests

80005 	          Automated Multichannel Test:
                 5 Clinical Chemistry Tests

80006 	          Automated Multichannel Test:
                 6 Clinical Chemical Tests

80007 	          Automated Multichannel Test:
                 7 Clinical Chemistry Tests

80012 	          Automated Multichannel Test:
                 12 Clinic Chemistry Tests

80016 	          Automated Multichannel Test:
                 13-16 Clinical Chemistry Tests

80018 	          Automated Multichannel Test:
                 17-18Clinical Chemistry Tests

80019 	          Automated Multichannel Test:
                 19or more Clinical Chemistry Tests
                 (indicate instrument and number of testsperformed)

81000 	          Urinalysis:
                 Routine, with Microscopy

81002 	          Urinalysis;
                 Routine, without Microscopy

82150            Amylase, Serum;

* HCFA Common Procedure Coding System




                                               13 

82270   Blood: 

        Occult, Feces,Screening 


82435   Chlorides; 

        Blood (Specify chemical or electrometric) 


82465   Cholesterol, Serum; 

        Total 


82550   Creatine Phosphokinase(CPK), Blood; 

        Timed Kinetic Ultraviolet Method 


82552   Creatine Phosphokinase(CPK), Blood; 

        Isoenzyme 


82565   Creatinine; Blood 


82607   Cyanocobalamin (Vitamin B-12); RIA Immunoassay 


82643   Digoxin, RIA-Immunoassay 


82644   Digoxin, emit 


82746   Folic Acid (Folate), Blood; RIA-Immunoassay 


82947   Glucose; 

        Except Urine (EG, Blood, Spinal Fluid, Joint Fluid) 


82948   Glucose; 

        Blood, Stick test 


83615   Lactic Dehydrogenase(LDH), Blood; 

        Kinetic Ultraviolet Method 


83625   Lactic Dehydrogenase(LDH), Blood; 

        Isoenzyme, Electrophoretic separationand quantitation 


84065   Phosphatase,acid; 

        Prostatic fraction 


84066   Phosphatase,acid; 

        Prostatic Fraction, RIA-Immunoassay 


84132   Potassium; Blood 

    84295     Sodium; Blood

    84420     Theophylline, Blood

    84435     Thyroxine, (T-4), CPB or resin uptake

    84443     Thyroid Stimulating Hormone (TSH), RIA Immunoassay

    84450 	   Transaminase,Glutamic Oxaloacetic (SGOT), Blood;
              Timed Kinetic Ultraviolet Method

    84460 	   Transminas, Glutamic Pyruvic (SGPT), Blood,
              Time Kinetic Ultraviolet Method

    84478     Triglycerides, Blood

    84479     Triiodothyronine (T-3), Resin Uptake

    84520     Urea Nitrogen, Blood (Bun); Quantitative

    84550     Uric Acid; Blood, Chemical

    85007 	   Blood count
              Differential WBC count
              (includes RBC Microphology and platelet estimation)

    85014 	   Blood count;
              Hematocrit

    85018 	   Blood count
              Hemoglobin, Calorimetric

    85021 	   Blood count
              Hemogram, Automated (RBC, WBC, HGB, HCI, and indicates only >

    85022 	   Blood count
              Hemogram, Automated, and differential WBC count (CBC)

    85028 	   Blood count
              Hemogram, Automated and differential WBC count
              (CBC) with platelet count

.   85031 	   Blood count
              Hemogram, Manual, Complete CBC
              (RBC, WBC, HGB, HCI, differential and indices)


                                           15 

85044   Blood count; 

        Reticulocyte Count 


85048   Blood count 

        White blood cell (WBC) 


85580   Platelet; 

        Count (Rees-Ecker) 


85595   Platelet; 

        Electronic Technique 


85610   Prothrombin time; 


85650   Sedimentation Rate (ESR); 

        Wintrobe type 


85651   Sedimentation Rate (ESR); 

        Westergren type 


85730   Thromboplastin time, partial (PTT); 

        Plasma or whole blood 


86151   Carcinoembryonic Antigen (CEA); 

        RIA-Immunoassay _ 


86592   Syphilis, precipitation or flocculation tests,Qualitative VDRL, RPR, DRT 


87040   Culture Bacterial, Definitive Aerobic; Blood (May include anaerobic screen) 


87070   Culture, Bacterial, Definitive, Aerobic; and other sources 


87086   Culture, Bacterial, Urine Quantitative, Colony Count 


87101   Culture, Fungi, Isolation; Skin 


87184   Sensitivity studies, Antibiotic; Disc method, per plate (12 or lessdiscs) 


87205   Smear,Primary Source, with Interpretation Routine Stain For Bacteria, 

        Fungi, or Cell Types 


88150   Cytopathology, Smears,Cervical or Vaginal (EG, Papanicolaou), 

        Screening and interpretation, Up to three Smears 





                                      16 

                        APPENDIX C


                 TEN MOST COMMON LAB TESTS 

            VARIATION IN PAYMENT AMOUNTS IN 1986 



PROCEDURE   HIGHEST         LOWEST           NATIONAL
CODE        AREA RATE       AREA RATE        LIMITATION

81000       $ 6.06          $ 3.16           $4.83
82947         7.57           4.64              6.03
80019        21.22            9.01            16.92
85022        10.55            6.53             8.41
85610         7.57            3.92             6.03
85031        11.36            3.90             9.06
82270         4.43            1.96             3.85
84132         7.99            4.36             6.96
85021         9.82            4.64             8.54
85650         6.79            2.95             5.41




                             17
.   :.   .




                                          APPENDIX D 



                     OUTPATIENT   LAB PROCEDURES   WITH GREATEST   VARIATION 

                                     IN PAYMENT AMOUNT-- 1986 



             PROCEDURE        HIGHEST          LOWEST          CEILING
             CODE             AREA RATE        AREA RATE       AMOUNT

             82552           $23.09            $4.64          $ 20.08
             86151            33.34             16.44          28.99
             83625            22.67              6.54           19.71
             82607            26.55             11.81          23.08
             80016            20.43              6.39           16.29
             84420            24.73             10.75          21.50
             87040            18.18              4.24           15.82
             82746            25.52             12.12           12.19
             80018            20.46              7.72           16.31
             80012            17.34              5.12           13.82
             80019            21.22              9.01           16.92
             84443            29.58             17.77          25.72
             87070            15.16              4.24           13.18
             80005            15.16              4.30           12.09
             80006            15.03              4.30           11.99
             80007            15.69              5.27           12.52
             80003            14.01              4.30          11.17




                                                I8
                                                                                       _-... -- -
            DcE‘P.i’RT.\iEST OF HLALTH b; HL’MMAS SERVICES                           Ftnancmg Acmnlstr3t:on




Oate        EB   1    1989
             William L. Roper, .&D.
             Administrator

Subject 	    OIC Draft Report: IMedicare Reimbursement       for Outpatient   Laboratory
             Services - OAI-04-88-O 1080

TO 	         The Inspector General
             Office of the Secretary

           We have reviewed your draft report which recommends that Congress be requested
           to remove the requirement for a laboratory reimbursement system based on a
           national fee schedule. The current laboratory reimbursement system requires
           payment at the lowest of the carrier fee schedule amount, the national median fee
       . 	 schedule amount, or the amount actually billed. Current law requires that, starting
           in 1990, reimbursement be based on a national fee schedule, rather than a carrier
           fee schedule. *

             We concur with the OIC recommendation.           The recommendation is consistent with
             the Administration’s     Fiscal Year (FYI 1990 legislative proposal to eliminate the
             statutory requirement that the Secretary establish a nationa fee schedule by
             January 1, 1990. By extrapolating the savings cited in the report to the entire
             population, it appears the OIC is assuming a total savings of about $145 million. This
             is $45 million less than the $190 million savings attributed to this proposal in the
             President’s Budget for FY 1990. The source of this discrepancy seems to be a
             differing interpretation     of the law by HCFA and the OIC. While OIC makes the
             assumption that a national fee schedule would be set at the level of the current
             national limitation amount (resulting in a 6 percent savings if the current system is
            “maintained), the HCFA interpretation       is that the national fee schedule would be
             built from 1984 charge data (the last year without payment caps). This would result
             in savings equivalent to 17.4 p&cent of total exRenditures without any behavioral
             effect being taken into account. When provider behavior is factored in, savings are
             reduced by 35 percent, resulting in net savings equal to approximately 11.3 percent
             (or $190 million in FY 1990). We recommend that the OIC take into account these
             factors in calculating prospective savings related to the position advocated by the
             report.

             We have included in an attachment some suggestions as to how the report could be
             strengthened and made more useful.         -_

             Thank you for giving us the opportunity   to comment on this draft report.
             Attachment         -
,           . .

    ,...,


                                   Additional HCF.4 Comments on the O[C Draft Report
                                Medicare Reimbutse:nent for autoatient Laboratotv Services
                                                     OAK?%-33-01380


                  The following     changes to the report would be useful:

                  0    The degree of variation in fee schedule amounts for tests. that are highly or
                       completely automated is of particular interest. Some discussion of the extent
                       of variation found for different kinds of tests (more vs. less automated) would
                       be very useful to the translation of the findings into future policy options.

                  0    A list of the 62 tests included in the analysis should be attached       as an appendix.

                  0	   We found the introduction     of new terminology,     like “area rates,” distracting   and
                       confusing.

                       + 	 “Area rates”   should, be replaced by “carrier-wide    fee schedules” or
                       “carrier-wide fee schedule amounts.”
                                   the term “nationaf fee limitation” should be replaced.
                       + 	 Similarly,
                       We suggest that the report initially define the limitation (as
                       100 percent of the median of all the carrier fee schedule amounts)
                       and, thereafter, refer to the “median cap” or ceiling amount.”

                  0	   The report provides an estimate of the impact the national fee schedule
                       requirement on payments for the 62 tests most commonly provided. Could the
                       same analysis be performed for the 60 tests that have the greatest dollar
                       volume? Also, any data on the distribution of these high volume or high dollar
                       volume tests by setting (i.e., the percentage of each done in physicians’ office
                       laboratories, independent laboratories and hospital outpatient laboratories)
                       would be very useful.

                  0	   The carriers with the lowest and highest fee schedule amounts for specified
                       tests (or overall, if meaningful) could be identified. Likewise, the tables in
                       Appendices 3 and C would be of greater interest if all the carriers’ fee schedule
                       amounts were shown with the highest and lowest value for each test
                       highlighted.
